                                                                                         Report No. 05-016
                                                                                              March 2005


                                            Security Controls Over the FDIC’s Electronic Mail
                                            (E-mail) Infrastructure

                                            Results of Audit
Background and Purpose of                   IBM found that the FDIC had established and implemented
Audit                                       many of the e-mail security controls recommended in federal
                                            standards and guidelines such as e-mail encryption, software
The Federal Deposit Insurance
                                            patch management, and a network architecture that protects
Corporation (FDIC) Office of Inspector
General (OIG) contracted with               e-mail servers. While these actions were positive, the FDIC
International Business Machines (IBM)       needed to take additional steps to ensure that security controls
Business Consulting Services to audit       for the e-mail infrastructure provided adequate confidentiality,
and report on the effectiveness of          integrity, and availability of information.
security controls over the FDIC’s
electronic mail (e-mail) infrastructure.
The results of this audit support the       Recommendations and Management Response
OIG in fulfilling its evaluation and
reporting responsibilities under the        IBM recommended that the FDIC:
Federal Information Security
Management Act of 2002.
                                                   •   take additional measures to ensure that users
The FDIC uses e-mail to conduct much                   encrypt e-mail communications when appropriate;
of its official business and share                 •   strengthen technical security controls over the
sensitive information such as open                     e-mail infrastructure;
bank data, contract negotiations,                  •   improve the vulnerability scanning process for
personnel data, and legal matters.                     e-mail servers; and
E-mail servers are one of the most                 •   strengthen controls for ensuring that electronic
frequent targets of attacks. In addition,              records, including e-mails, are retained when
e-mail messages and their attachments
                                                       employees leave the Corporation.
have proven to be effective in
introducing viruses, worms, and other
types of malicious code into networks.      The Corporation’s response adequately addressed our
Therefore, e-mail servers and related       concerns.
infrastructure components must be
properly secured.                           This report addresses issues associated with information
                                            security. Accordingly, we have not made, nor do we intend to
The objective of the audit was to           make, public release of the specific contents of the report.
evaluate the adequacy of security
controls over the FDIC’s e-mail
infrastructure that were designed to
ensure the appropriate confidentiality,
integrity, and availability of
information. As part of the audit, IBM
evaluated the FDIC’s management,
operational, and technical security
controls related to the e-mail
infrastructure for consistency with
federal standards and guidelines.
